           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION



  ADMINISTRATIVE COSTS CLAIMED
         BY THE WISCONSIN
 DISABILITY DETERMINATION BUREAU


     November 2005   A-05-05-15013



 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                          SOCIAL SECURITY
MEMORANDUM

Date:   November 22, 2005                                                    Refer To:

To:     James F. Martin
        Regional Commissioner
         Chicago

From:   Inspector General

Subject: Administrative Costs Claimed by the Wisconsin Disability Determination Bureau
            (A-05-05-15013)


        OBJECTIVES
        The objectives of our audit were to evaluate the Wisconsin Disability Determination
        Bureau’s (WI-DDB) internal controls over the accounting and reporting of administrative
        costs, determine whether costs claimed by the WI-DDB were allowable and funds were
        properly drawn, and assess limited areas of the general security controls environment.
        Our audit included the administrative costs claimed by the WI-DDB during Fiscal Years
        (FY) 2001 through 2003.

        BACKGROUND
        The Disability Insurance (DI) program, established under Title II of the Social Security
        Act (Act), provides benefits to wage earners and their families in the event the wage
        earner becomes disabled. In 1972, Congress enacted the Supplemental Security
        Income (SSI) program under Title XVI of the Act. The SSI program provides a
        nationally uniform program to financially needy individuals who are aged, blind, and/or
        disabled.

        The Social Security Administration (SSA) is responsible for implementing policies
        governing the development of disability claims under the DI and SSI programs.
        Disability determinations under both DI and SSI are performed by Disability
        Determination Services (DDS) in each State or other responsible jurisdiction, in
        accordance with Federal regulations. 1 In carrying out its obligation, each DDS is
        responsible for determining claimants’ disabilities and ensuring that adequate evidence

        1
            20 C.F.R. §§ 404.1601 et seq. and 416.1001 et seq.
Page 2 – James F. Martin

is available to support its determinations. 2 To assist in making proper disability
determinations, each DDS is authorized by SSA to purchase medical examinations,
x-rays, and laboratory tests on a consultative basis to supplement evidence obtained
from the claimants’ physicians or other treating sources.

SSA reimburses the DDS for 100 percent of allowable expenditures up to its approved
funding authorization. The DDS withdraws Federal funds through the Department of the
Treasury’s (Treasury) Automated Standard Application for Payments system to pay for
program expenditures. Funds drawn down must comply with Federal regulations 3 and
intergovernmental agreements entered into by Treasury and States under the Cash
Management Improvement Act of 1990. 4 An advance or reimbursement for costs under
the program must comply with the Office of Management and Budget Circular A-87,
Cost Principles for State, Local, and Indian Tribal Governments. At the end of each
quarter of the FY, each DDS submits a Form SSA-4513, State Agency Report of
Obligations for SSA Disability Programs, to account for program disbursements and
unliquidated obligations. See Appendix B for the scope and methodology of our audit.

The Wisconsin Department of Health and Family Services (DHFS) is the WI-DDB’s
parent agency. The WI-DDB is located in Madison, Wisconsin.

RESULTS OF REVIEW
Our review of administrative costs disclosed that in certain instances the WI-DDB’s
medical payment rates exceeded the highest rate paid by Federal or other agencies in
the State, which resulted in related excess payments of $813,369 for FYs 2001 through
2003. Also, neither the SSA Regional Office (RO) nor the WI-DDB could provide written
documentation to support that SSA authorized the purchase of 36 computer monitors
totaling $20,520 and two mail inserter machines totaling $22,132.

CONSULTATIVE EXAMINATION COSTS

For FYs 2001 through 2003, we found that in certain instances the WI-DDB reimbursed
medical providers at payment rates in excess of the maximum rates paid by Federal or
other agencies in the State. The related excess consultative examination (CE)
payments totaled $813,369. Federal regulations require that each State determine the
payment rates for medical or other services necessary to make determinations of
disability. The rates may not exceed the highest rate paid by Federal or other agencies




2
    20 C.F.R. §§ 404.1603(c)(1) and 404.1614(a); 20 C.F.R. §§ 416.1003(c)(1) and 416.1014(a).
3
    31 C.F.R. § 205.1 et seq.
4
    Pub. L. No. 101-453, 31 U.S.C. § 6501.
Page 3 – James F. Martin

in the State for the same or similar types of service. 5 The State is responsible for
monitoring and overseeing the rates of payment for medical and other services to
ensure the rates do not exceed the highest rate paid by Federal or other agencies in the
State. 6

We compared the rates paid by Medicare with the fees paid by the WI-DDB for selected
medical examinations and tests. 7 We found that in certain instances the WI-DDB used
payment rates that exceeded those allowed by Medicare totaling $813,369 for
FYs 2001 through 2003 (see Appendix C). The related excess payments were:

      •   $223,263 in FY 2001,
      •   $312,070 in FY 2002, and
      •   $278,036 in FY 2003.

In response to our analyses, the WI-DDB stated that although the fee schedule paid
more for most laboratory and psychometric tests, the fee schedule paid less than
Medicare rates for most CEs. The WI-DDB also stated that the current CE
reimbursement policy resulted in savings when compared to the use of Medicare rates
for all CEs during the audit period (see Appendix D). We commend the WI-DDB for
purchasing CEs at less than the highest allowable rate. However, Federal regulations
do not allow the WI-DDB to pay rates above those allowed by Medicare for certain CEs,
even though the WI-DDB paid less than Medicare for other CEs.

We recommend that SSA determine if it was necessary for the WI-DDB to exceed the
highest allowable fees to obtain the services. If SSA determines that it was not
necessary for the WI-DDB to exceed the highest allowable rates of payment, it should
take appropriate action, such as instructing the WI-DDB to refund the excess CE
payments and limiting future CE rates of payment.

ALL OTHER NONPERSONNEL COSTS

Neither the SSA RO, nor the WI-DDB could provide written documentation to support
that SSA authorized the purchase of 36 computer monitors totaling $20,520. The SSA
RO staff informed us that SSA gave verbal approval to purchase 36 computer monitors
before the end of FY 2003. SSA policy states that specific approval for any controlled




5
    20 C.F.R. §§ 404.1624 and 416.1024.
6
    20 C.F.R. §§ 404.1519k(c) and 416.919k(c).
7
  The CEs we reviewed accounted for 80 percent of CE costs during the audit period and related to
16 medical examinations and tests. The rates that the WI-DDB used for 10 of the 16 examinations and
tests exceeded those allowed by Medicare.
Page 4 – James F. Martin

cost categories not submitted with the budget request must be requested in writing from
the RO before obligations are incurred during the FY. 8 SSA should ensure the WI-DDB
submits appropriate purchase requests in writing, obtains approvals from SSA and
maintains support for all obligations incurred.

In addition, neither the SSA RO, nor the WI-DDB could provide written documentation to
support that SSA authorized the purchase of two mail inserter machines totaling
$22,132. SSA policy requires written approval to substitute purchase items when the
cost exceeds the cost of the original item. In instances where it is necessary to
substitute the purchase of an item—similar in function and type—for an item previously
approved, prior authorization is not necessary, if the cost of the substitute item does not
exceed that of the original item, and the cost remains within the limit of the obligational
authorization. 9 We found that the SSA RO initially approved the purchase of one mail
inserter machine for $8,400. However, two mail inserter machines totaling
$22,132 were actually purchased. Prior authorization was necessary, since the cost of
the purchased items exceeded the cost of the original item.

CONCLUSIONS AND RECOMMENDATIONS
Our review of administrative costs disclosed that in certain instances the WI-DDB’s
medical payment rates exceeded the highest rate paid by Federal or other agencies in
the State, which resulted in related excess payments of $813,369 for FYs 2001 through
2003. Also, neither the SSA RO, nor the WI-DDB could provide written documentation
to support that SSA authorized the purchase of 36 computer monitors totaling
$20,520 and two mail inserter machines totaling $22,132.

We recommend that SSA:

1. Determine if it was necessary for the WI-DDB to exceed the highest allowable fees to
   obtain the CE services. If SSA determines that it was not necessary for the WI-DDB
   to exceed the highest allowable rates of payment, it should take appropriate action,
   such as instructing the WI-DDB to refund the excess CE payments and limiting future
   CE rates of payment.

2. Ensure that the WI-DDB submits appropriate purchase requests in writing, obtains
   approvals from SSA and maintains support for all obligations incurred for controlled
   cost categories and substitutions when the cost of the replacement item exceeds the
   cost of the original item.




8
    SSA POMS DI 39503.270.B Nonpersonnel Costs – DDS.
9
    SSA POMS DI 39530.040.A.2. DDS Funding Process.
Page 5 – James F. Martin

AGENCY COMMENTS
In commenting on our draft report, SSA agreed with our recommendations. With
regards to recommendation number 1, SSA stated that it was necessary for the WI-DDB
to exceed the highest allowable fees for CE services in order to provide timely and
accurate disability determinations. See Appendix E for the full text of SSA’s comments.

WI-DDB COMMENTS

In commenting on our draft report, the WI-DDB agreed with our recommendations. See
Appendix F for the full text of the WI-DDB’s comments.




                                              S
                                              Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Wisconsin Disability Determination Bureau Medical Costs

APPENDIX D – Wisconsin Disability Determination Bureau Comments on Our Medical
             Fee Comparison

APPENDIX E – Agency Comments

APPENDIX F – Wisconsin Disability Determination Bureau Comments

APPENDIX G – OIG Contacts and Staff Acknowledgments
                                                                Appendix A
Acronyms
Act             Social Security Act
CE              Consultative Examinations
C.F.R.          Code of Federal Regulations
CPT             Current Procedural Terminology
DDS             Disability Determination Services
DHFS            Wisconsin Department of Health and Family Services
DI              Disability Insurance
EDP             Electronic Data Processing
Form SSA-4513   State Agency Report of Obligations for SSA Disability Program
FY              Fiscal Year
POMS            Program Operations Manual System
Pub. L.         Public Law
RO              Regional Office
SSA             Social Security Administration
SSI             Supplemental Security Income
Treasury        Department of the Treasury
WI-DDB          Wisconsin Disability Determination Bureau
U.S.C.          United States Code
                                                                      Appendix B

Scope and Methodology
To achieve our objective, we:

•   Reviewed applicable Federal laws and regulations, pertinent parts of the Social
    Security Administration’s Program Operations Manual System DI 39500 DDS Fiscal
    and Administrative Management, and other instructions pertaining to administrative
    costs incurred by the Wisconsin Disability Determination Bureau (WI-DDB) and the
    draw down of Social Security Administration (SSA) funds.

•   Reviewed single audit work performed by the State of Wisconsin Legislative Audit
    Bureau auditors. Because of the limited scope of the single audit work performed at
    WI-DDB, we did not rely on the single audit work.

•   Interviewed staff at the WI-DDB, the Wisconsin Department of Health and Family
    Services (WI-DHFS) and SSA Regional Office, Chicago, Illinois.

•   Reviewed State policies and procedures related to personnel, medical services, and
    all other nonpersonnel costs.

•   Evaluated and tested internal controls regarding accounting, financial reporting and
    cash management activities.

•   Tested the payroll records to ensure individuals were paid correctly and payroll was
    adequately documented.

•   Reviewed and reconciled the official State accounting records to the administrative
    costs reported by WI-DDB on the State Agency Report of Obligations for SSA
    Disability Program (Form SSA-4513) for Fiscal Years (FY) 2001 through 2003.

•   Examined the administrative expenditures (personnel, medical service, and all other
    nonpersonnel costs) incurred and claimed by WI-DDB for FYs 2001 through 2003 on
    the Form SSA-4513. We used statistical sampling to select documents to test for
    support of the medical service and all other nonpersonnel costs.

•   Performed a crosswalk between WI-DDB and Medicare rates of payment for
    consultative examinations.

•   Examined the indirect costs claimed by WI-DDB for FYs 2001 through 2003 and the
    corresponding WI-DDB Indirect Cost Rate Agreements.




                                           B-1
•   Compared the amount of SSA funds drawn for support of program operations to the
    expenditures reported on the Form SSA-4513.

•   Discussed indirect cost issues with the Department of Health and Human Services,
    Division of Cost Allocation, Chicago, Illinois.

•   Reviewed the Memorandum of Understanding between SSA and the State of
    Wisconsin for non-SSA work.

•   Reviewed limited areas of the WI-DDB physical security controls.

We concluded that the electronic data used in our audit was sufficiently reliable to
achieve our audit objectives. We assessed the reliability of the electronic data by
reconciling it with the costs claimed on the Form SSA-4513. We also conducted
detailed audit testing on selected data elements in the electronic data files.

We performed audit work at the WI-DDB and the WI-DHFS offices in Madison,
Wisconsin. We conducted fieldwork from April 2004 through June 2005. The audit was
conducted in accordance with generally accepted government auditing standards.

METHODOLOGY
Our sampling methodology encompassed the four general areas of costs as reported on
Form SSA-4513: (1) personnel; (2) medical; (3) indirect; and (4) all other nonpersonnel
costs. We obtained computerized data from WI-DDB for FYs 2001 through 2003 for
use in statistical sampling.

Personnel Costs

We sampled 50 WI-DDB employees and 21 medical consultants from one randomly
selected pay period in the most recent year under review.

Medical Costs

We sampled 150 items (50 items each from FYs 2001 through 2003) using a stratified
random sample. We stratified medical costs into Medical Evidence of Record and
Consultative Examinations.

Indirect Costs

We reviewed the FY 2001 through 2003 indirect cost rates and conducted testing of the
indirect cost rate calculations.




                                           B-2
All Other Nonpersonnel Costs

We selected a stratified random sample of 150 items (50 expenditures each from
FYs 2001 through 2003) of All Other Nonpersonnel costs based on the percentage of
costs in each category to total costs. We stratified All Other Nonpersonnel costs into
10 cost categories: (1) Occupancy; (2) Contracted Costs; (3) Electronic Data
Processing (EDP) Maintenance; (4) New EDP Equipment; (5) Equipment Rental;
(6) Communication; (7) Applicant Travel; (8) Disability Determination Services Travel;
(9) Supplies; and (10) Miscellaneous. We conducted a 100 percent review of the facility
rent payments.




                                          B-3
                                                                                        Appendix C

Wisconsin Disability Determination Bureau
Medical Costs
                                             Fiscal Year 2001

                                                                  Difference
                 Current                                           Between                           Amount in
               Procedural                                        WI-DDB Fee                          Excess of
 WI-DDB         Termino-                        Highest          and Highest         Number           Highest
 Medical       logy (CPT)       WI-DDB         Allowable          Allowable            of            Allowable
 Code 1          Code 2           Fee            Rate 3              Rate            Exams              Rate
05A14             96100         $ 120.00       $ 85.1875         $ 34.8125             2,407        $ 83,793.69
05A7              96100         $ 100.00       $ 85.1875         $ 14.8125               733        $ 10,857.56
05C2              96100         $ 100.00       $ 85.1875         $ 14.8125             1,256        $ 18,604.50
05C3              96111         $ 130.00       $ 85.1875         $ 44.8125               351        $ 15,729.19
05C34             96100         $ 130.00       $ 85.1875         $ 44.8125               294        $ 13,174.88
05C6              96100         $ 100.00       $ 85.1875         $ 14.8125               304        $ 4,503.00
10A               92004         $ 135.00       $ 115.35          $      19.65            339        $ 6,661.35
16C               92506         $ 115.00       $    77.81        $      37.19            249        $ 9,260.31
T01               94060         $ 110.00       $    57.13        $      52.87            506        $ 26,752.22
X03               72100         $ 60.00        $    37.03        $      22.97          1,477        $ 33,926.69
                                                                                        Total       $ 223,263.38




1
    The WI-DDB identifies each medical examination and test with an alpha-numeric code.
2
  CPT is a uniform coding system maintained by the American Medical Association that is used primarily
to identify medical services and procedures furnished by physicians and other health care professionals.
The CPT codes in this table correspond to the listed WI-DDB codes.
3
  SSA guidance outlined in the Disability Determination Services Administrators’ Letter 501, Medical
Procedures Fee Schedule Workgroup Report, dated March 12, 1999, states that Disability Determination
Services (DDS) may multiply the Medicare fee for CPT code 96100 by the number of hours to administer
each test to determine the maximum amount to be paid. For the psychological tests we reviewed, we
multiplied the Medicare rate for codes 96100 and 96111 by the time factor of 1.25 hours. The WI-DDB
agreed that 1.25 hours may be reasonable as an average test time. However, the WI-DDB stated that
consultative examiners are required to review prior records, obtain information on historical and current
levels of daily functioning through a clinical interview, and to consider this information with the actual test
findings. Additional time beyond the administration of the test is required to complete the analyses and a
report.


                                                      C-1
                                          Fiscal Year 2002

                                                         Difference
               Current                                    Between                  Amount in
             Procedural                                 WI-DDB Fee                 Excess of
 WI-DDB       Termino-                      Highest     and Highest    Number       Highest
 Medical     logy (CPT)        WI-DDB      Allowable     Allowable       of        Allowable
 Code 1        Code 2            Fee         Rate 3         Rate       Exams          Rate
05A14           96100          $ 120.00    $ 76.5750    $ 43.4250        2,766    $ 120,113.55
05A7            96100          $ 100.00    $ 76.5750    $ 23.4250          922    $ 21,597.85
05C2            96100          $ 100.00    $ 76.5750    $ 23.4250        1,236    $ 28,953.30
05C3            96111          $ 130.00    $ 76.5750    $ 53.4250          376    $ 20,087.80
05C34           96100          $ 130.00    $ 76.5750    $ 53.4250          373    $ 19,927.53
05C6            96100          $ 100.00    $ 76.5750    $ 23.4250          316    $ 7,402.30
10A             92004          $ 170.30    $ 117.83     $      52.47       303    $ 15,898.41
16C             92506          $ 115.00    $    89.74   $      25.26       252    $ 6,365.52
T01             94060          $ 110.00    $    58.78   $      51.22       554    $ 28,375.88
X03             72100          $ 60.00     $    33.39   $      26.61     1,629    $ 43,347.69
                                                                          Total   $ 312,069.83




N
 ote: See C-1 for footnote definitions.




                                                C-2
                                          Fiscal Year 2003

                                                         Difference
               Current                                    Between                  Amount in
             Procedural                                 WI-DDB Fee                 Excess of
 WI-DDB       Termino-                      Highest     and Highest    Number       Highest
 Medical     logy (CPT)        WI-DDB      Allowable     Allowable       of        Allowable
 Code 1        Code 2            Fee         Rate 3         Rate       Exams          Rate
05A14           96100          $ 120.00    $ 81.2375    $ 38.7625        2,778    $ 107,682.23
05A7            96100          $ 100.00    $ 81.2375    $ 18.7625          870    $ 16,323.38
05C2            96100          $ 100.00    $ 81.2375    $ 18.7625        1,417    $ 26,586.46
05C3            96111          $ 130.00    $ 81.2375    $ 48.7625          276    $ 13,458.45
05C34           96100          $ 130.00    $ 81.2375    $ 48.7625          454    $ 22,138.18
05C6            96100          $ 100.00    $ 81.2375    $ 18.7625          274    $ 5,140.93
10A             92004          $ 170.30    $ 118.03     $      52.27       268    $ 14,008.36
16C             92506          $ 115.00    $    88.12   $      26.88       325    $ 8,736.00
T01             94060          $ 110.00    $    65.20   $      44.80       534    $ 23,923.20
X03             72100          $ 60.00     $    35.30   $      24.70     1,621    $ 40,038.70
                                                                          Total   $ 278,035.87




N
 ote: See C-1 for footnote definitions.




                                                C-3
                                                                                 Appendix D

            Wisconsin Disability Determination Bureau
            Comments on Our Medical Fee Comparison
                                                                                 DIVISION OF HEALTH CARE FINANCING

                                                                                  DISABILITY DETERMINATION BUREAU
                                                                                                       P O BOX 7886
                                                                                              MADISON WI 53707-7886
Jim Doyle
Governor                                                                                    Telephone: 608-266-1565
                                              State of Wisconsin                                  FAX: 608-266-8297
Helene Nelson                                                                                     TTY: 608-266-9569
Secretary                          Department of Health and Family Services                      dhfs.wisconsin.gov




            May 6, 2005

            Re: Medical Cost Questions from OIG

            Comparison between WI DDB fees and Medicare Rates

            OIG has requested comments on the medical fee comparison to Medicare rates and an
            explanation of why payments exceed certain Medicare rates.

            In our February 14, 2005 memorandum on Medical Cost Questions, we detailed the
            development of the consultative examination fee structure in Wisconsin.

            We have not used the Medicare fee schedule as the basis for establishing rates,
            although we have used the information in our analysis. The fee schedule was
            developed when DDB was part of the Division of Vocational Rehabilitation. The policy
            at that time was to pay the usual and customary billed rates by local vendors. Because
            of budget limitations, we were not able to adopt that policy in whole, but rather
            established rates at or near the mid-point averages of billed rates.

            As we previously reported, this has resulted in a fee schedule that has paid less than
            Medicare rates for most examinations, but more for most laboratory and psychometric
            tests.

            Although our payments exceeded Medicare rates on some exams and many laboratory
            and psychometric tests, the WI DDB rate policy resulted in a very substantial savings to
            SSA overall. During FFY 2001 our reimbursement policy actually resulted in savings of
            $1,498,563 when compared to the use of Medicare rates for all examinations and tests.
            These savings were $1,512,506 in FFY 2002 and $1,533,522 in FFY 2003 for a total of
            $4,544,592 in savings during the period under audit review.
                  Appendix E

Agency Comments
                                        SOCIAL SECURITY
 MEMORANDUM

 Date:     November 3, 2005                                                     Refer To: S2D5G2

 To:       Inspector General

 From:     Regional Commissioner
           Chicago

Subject:   Draft Report of Administrative Costs Claimed by the Wisconsin Disability Determination Bureau
           (Your Request for Comments E-Mailed October 11, 2005) -- REPLY


           Thank you for the opportunity to comment on the subject report (A-05-05-15013). We have
           completed our review and have attached comments concerning the two findings contained in
           the draft report.

           We appreciate the challenges and difficulties the audit team faced during this audit. The audit
           team worked closely with my staff, conducting several conference calls and face-to-face
           meetings. We were able to resolve several potential findings during these predraft discussions,
           and we appreciated the open lines of communication.

           Again, we want to acknowledge the efforts of your staff in conducting such a comprehensive
           review of DDS activities.

           Questions about this memorandum may be directed to Jim Jamison, Financial Management
           Team Leader, at 312-575-4212.



                                                        /s/
                                                    James F. Martin




           Attachment

           cc:   Deputy Commissioner for Operations
                 Deputy Commissioner for Finance Assessment and Management




           Attachment


                                                       E-1
Administrative Costs Claimed by the Wisconsin Disability Determination Bureau
(A-05-05-15013)


Recommendation 1 -- Determine if it was necessary for the WI-DDB to exceed the highest
allowable fees to obtain the CE services. If SSA determines that it was not necessary for the
WI-DDB to exceed the highest allowable rates of payment, it should take appropriate action,
such as instructing the WI-DDB to refund the excess CE payments and limit future CE rates of
payment.

Comment -- We agree that the WI-DDB is required to maintain documentation that the rate of
payment for medical evidence and CEs does not exceed the highest rate paid by Federal or
public agencies in the State for the same or similar services [20 CFR 404.1519k (a)]. We also
agree that in this instance the WI-DDB had not followed the regulations and had not requested
any waiver or exception from these requirements. However, based on the documentation they
have submitted, we believe the actions of the DDB were justifiable and necessary in order to
provide timely and accurate disability determinations. We believe that it was, and is, necessary
for the WI-DDB to pay these higher fees for CE services, and would have approved an
exception to the regulations had a timely request been made.

Historically, the WI-DDB has worked diligently to control medical case costs. Wisconsin’s
medical cost per case is the lowest in the Region. Also, their CE rate (the percent of cleared
claims which required a CE) is by far the lowest in the Region, and among the lowest in the
nation. We believe their CE fee schedule reflects the DDB’s best efforts to obtain CE services
that represent the best value to the Agency, considering such factors as reliability, quality,
availability, timeliness, and claimant convenience. The DDB is unable to locate providers willing
to perform these tests and procedures at a lower fee. We have reminded the DDB staff that
they should request exceptions to the fee schedule regulations in writing, and that proper
documentation (e.g., a printout of the State component or Medicare fee schedule) should be
maintained in the DDB for all other fees.


Recommendation 2 -- Ensure that the WI-DDB submits appropriate purchase requests in
writing, obtains approvals from SSA and maintains support for all obligations incurred for
controlled cost categories and substitutions when the cost of the replacement item exceeds the
cost of the original item.

Comment—We concur with this finding and have reminded the WI-DDB to more closely follow
Agency guidelines regarding purchase requests.




                                             E-2
                                    Appendix F

Wisconsin Disability Determination Bureau
Comments
F-1
F-2
                                                                       Appendix G

OIG Contacts and Staff Acknowledgments
OIG Contacts
      Mark Bailey, Director, Chicago Audit Division (816) 936-5591

      Teresa S. Williams, Audit Manager, Chicago, Illinois (312) 353-0331

Acknowledgments

In addition to those named above:

      Elizabeth Juárez, Senior Auditor

      Sherman Doss, Auditor

      Cheryl Robinson, Writer-Editor

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-05-05-15013.
                             DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
